<html>
<title> - NOMINATION OF PETER J. EIDE</title>
<body><pre>[Senate Hearing 108-95]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-95

                      NOMINATION OF PETER J. EIDE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                 ON THE

   NOMINATION OF PETER J. EIDE, TO BE GENERAL COUNSEL, FEDERAL LABOR 
                          RELATIONS AUTHORITY

                               __________

                             APRIL 10, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



88-243              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
                    Johanna L. Hardy, Senior Counsel
  John C. Salamone, Professional Staff Member, Oversight of Government
    Management, the Federal Workforce and the District of Columbia 
                              Subcommittee
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
                  Lawrence B. Novey, Minority Counsel
           Jennifer E. Hamilton, Minority Research Assistant
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Akaka................................................     3
    Senator Durbin...............................................     4

                                WITNESS
                        Thursday, April 10, 2003

Hon. Peter J. Eide, to be General Counsel, Federal Labor 
  Relations Authority
    Testimony....................................................     5
    Prepared Statement...........................................    15
    Biographical and professional information....................    16
    Pre-hearing questions and responses for the Record...........    26
    Post-hearing questions and responses for the Record submitted 
      to the Hon. Peter Eide from Senator Lautenberg.............    47
    Post-hearing questions and responses for the Record submitted 
      to the Hon. Peter Eide from Senator Akaka..................    51

                                Appendix

Letters submitted by Senator Akaka from:
    American Federation of Government Employees, AFL-CIO, dated 
      April 9, 2003..............................................    54
    National Treasury Employees Union (NTEU), dated March 26, 
      2003.......................................................    56
    Association of Administrative Law Judges, Inc., dated August 
      1, 2002....................................................    58

 
                      NOMINATION OF PETER J. EIDE

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:38 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George 
Voinovich presiding.
    Present: Senators Voinovich, Akaka, and Durbin.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Good morning. I want to thank you for 
coming, Mr. Eide.
    Today, the Committee on Governmental Affairs meets to 
discuss the nomination of Peter Eide for the position of 
General Counsel at the Federal Labor Relations Authority.
    I would like to extend a warm greeting to Mr. Eide and his 
family that are here in attendance. Senator Akaka and I have 
had a chance to meet your daughter Cheryl and son-in-law Ray, 
and grandchildren Savannah and Austin, and daughters Karalyn 
Eide and Merissa Eide. We are glad you are here today.
    Mr. Eide, I strongly believe in the nobility of public 
service and I commend you for answering the President's call to 
serve our Nation. Your qualifications include extensive labor 
management relations experience, first as an employee, and 
president of the local union at the National Labor Relations 
Board, and then in the private sector. As General Counsel, your 
responsibilities would include managing the OGC's seven 
regional offices, processing unfair labor practice allegations, 
encouraging the use of alternate dispute resolution techniques, 
and promoting stable and productive labor management relations 
in the Federal sector.
    As a former mayor and governor, I understand the importance 
of establishing positive labor management relationships based 
on open communication and trust. During my career I have worked 
conscientiously to bring people together and when I came to the 
Senate I embarked on a bipartisan approach to solve our 
government's human capital challenges. I must say that Senator 
Akaka has been my partner in this endeavor.
    During this Committee's consideration of the homeland 
security legislation, last July, I worked with Senator Akaka to 
add key provisions of my human capital bill. The bipartisan 
effort made necessary changes in the Federal personnel policy 
to allow Federal agencies the flexibility to get the right 
people with the right skills and knowledge at the right place 
and time.
    Also during the homeland security debate I strongly 
encouraged the President to meet with unions to discuss their 
concerns about the homeland security bill. I do not know 
whether you know this or not, but the unions believed that they 
were being excluded from the process because of the President 
repealing the Executive Order establishing labor management 
partnerships which had been in existence with the previous 
administration. I encouraged the administration to continue the 
partnership agreement, and unfortunately it did not happen. So 
I understand why the unions are concerned and I would hope that 
you might encourage the administration to review the 
partnership agreement. I think it would help foster better 
labor/management partnerships.
    In addition, the administration issued an Executive Order 
barring unions from the U.S. Attorney's Office. This issue came 
up, Mr. Eide, in an unusual way and it worked its way through 
the system and ended up before the Board, which became 
irrelevant during the process because the President pre-empted 
the Board's decision by issuing the Executive Order exempting 
unions from the Office of U.S. Attorneys.
    So there is a problem here, and I think we need to work on 
it. Kay James, who is the head of the Office of Personnel 
Management is aware of it, and we have worked with some of the 
folks that are involved.
    I was pleased with the new Homeland Security law, which 
maintains the employee's right to organize and bargain 
collectively. I am also glad that the administration is 
following through with its commitment to consult with all 
stakeholders as it develops the Homeland Security's personnel 
system. Thus far this process seems to be going all right. I 
talked with the union presidents and trust that this is going 
to be an open and collaborative process that will yield a 
flexible personnel system that is fair to all employees.
    Further, I hope we can enact additional provisions to give 
all of our Federal employees the tools they need to do their 
jobs effectively.
    If you are confirmed, I expected that you will do 
everything in your power to ensure that the Department of 
Homeland Security's labor management relations apparatus is 
administered within the spirit of the law, and that unfair 
labor practices rulings are applied without prejudice 
throughout the government.
    I hope you take a very active role in improving labor 
management relations and that you aggressively pursue a program 
that would provide training to Federal employees on the 
benefits of consensus decisionmaking techniques for resolving 
workforce disputes.
    To begin this endeavor, I suggest that you conduct a 
thorough assessment of the current labor management relations 
environment and utilize the expertise of the new chief human 
capital officers to accomplish this goal. This is a major 
highlight of my legislation because it creates a chief human 
capital officer in 24 major departments and agencies. We have 
not had them. We have neglected the real important essential of 
government today, and that is people.
    I have observed Congress as a mayor and then as governor 
and as chairman of the National Governors Association, and also 
president of the National League of Cities. And I think it is 
atrocious that the Federal Government's workforce has not been 
given the kind of attention that is needed.
    The General Counsel of the FLRA, in my opinion, is a very 
important position. How well you do that job will have a large 
impact on whether we can develop effective labor/management 
partnerships in government today. The unions must feel that the 
process is open, that they have somebody in your position 
aggressively trying to make sure that a dialogue exists, and 
frankly by doing that you may eliminate the need for people to 
appeal. It is also important to make sure that employees and 
managers are treated fairly and consistently based on the 
guidelines of the Federal Labor Relations Statute.
    So I look forward to your testimony today to hear how you 
plan to apply your extensive private sector experience to the 
government and to learn what steps you have taken to prepare 
for this important position.
    I would now like to call on Senator Akaka to give him an 
opportunity to make his opening statement, and then we will 
open it up for your statement.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    It is always a pleasure to work with you, especially to 
work with someone who I call a champion on human capital. I 
look forward to continuing to work with you on that. And it is 
a pleasure for me to be with you this morning and with Senator 
Durbin, as well.
    I want to add my welcome to Mr. Eide and your lovely and 
handsome family. The only thing I can say is you are really a 
fortunate man to have such a family.
    Mr. Eide. That I am.
    Senator Akaka. Just 2 days ago my friend from Ohio chaired 
a hearing with our House counterparts on the Federal workforce. 
I was unable to attend that meeting because Tuesday was the 
first day of a 3-day Energy Committee markup. That is the kind 
of problem we have here. We are members of other committees, 
and when we have important markups, we have to be at those 
meetings.
    But I wanted to be here today because I feel that the 
government's most important asset is its employees.
    Mr. Eide, I want to congratulate you for being nominated to 
serve as the General Counsel of the Federal Labor Relations 
Authority.
    The FLRA is charged with protecting the rights of Federal 
employees from unfair labor practices. Because of your prior 
relationships and your jobs in the private sector, there have 
been some concerns. Concerns have been raised by the American 
Federation of Government Employees and the National Treasury 
Employees Union about your long association with the U.S. 
Chamber of Commerce. The reason is they regard the Chamber as 
an organization that has opposed most labor initiatives.
    Mr. Chairman, I ask that letters from AFGE and NTEU be 
included in the record, as well as a letter from the 
Association of Administrative Law Judge's in support of Mr. 
Eide's nomination.\1\
---------------------------------------------------------------------------
    \1\ The letters submitted by Senator Akaka appear in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Senator Voinovich. Without objection.
    Senator Akaka. The FLRA will face major challenges 
involving the creation of the labor management relations policy 
at the new Department of Homeland Security. The sheer number of 
employees within the Department and the ability of the 
Department to waive Chapter 71 of Title 5 relating to labor 
management relations undoubtedly will increase the workload at 
the FLRA. It may also pose unique legal and policy questions 
for the authority and for the General Counsel.
    I look forward to this hearing, Mr. Chairman, and I want to 
thank you for having it today. Thank you.
    Senator Voinovich. Thank you, Senator Akaka. Senator 
Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman.
    I ask that my opening statement be made part of the record. 
In the interest of time, I have a Judiciary Committee hearing, 
and I will waive making a statement at this point. I hope I 
will have a chance to ask some questions.
    [The prepared statement of Senator Durbin follows:]

              PREPARED OPENING STATEMENT OF SENATOR DURBIN
    Thank you, Mr. Chairman, for calling this hearing. I would like to 
welcome Mr. Eide. Thank you for testifying this morning.
    The Federal Labor Relations Authority (FLRA) serves as an 
independent, neutral third-party for resolving labor-management 
disputes in the Federal Government. The Office of the General Counsel 
is the FLRA's independent investigator and prosecutor.
    Mr. Eide, if confirmed for this position to which you have been 
nominated, you will have the important responsibilities of 
investigating all allegations of unfair labor practices filed and 
processing all representation petitions received; exercising final 
authority over the issuance and prosecution of all complaints; 
supervising and conducting elections concerning the exclusive 
recognition of labor organizations and the certification of the results 
of elections; conducting all hearings to resolve disputed issues in 
representation cases; preparing final decisions and orders in these 
cases; and directing and supervising all employees of the regional 
offices.
    I ask that letters submitted to the Committee in relation to this 
nominee be made part of the record. I look forward to hearing your 
testimony, Mr. Eide.

    Senator Voinovich. Thank you.
    Mr. Eide has filed responses to a biographical and 
professional questionnaire, answering pre-hearing questions 
submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made a part of the record 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.\1\
---------------------------------------------------------------------------
    \1\ Biographical and professonal information for Mr. Eide appears 
in the Appendix on page 16.
---------------------------------------------------------------------------
    Mr. Eide, our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. If you 
would please stand.
    [Witness sworn.]
    Senator Voinovich. Now, I would like to hear from you.

 TESTIMONY OF PETER J. EIDE,\1\ TO BE GENERAL COUNSEL, FEDERAL 
                   LABOR RELATIONS AUTHORITY

    Mr. Eide. I have a few written comments, I would like to 
read that, and then answer your questions, if that is all 
right.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Eide appears in the Appendix on 
page 15.
---------------------------------------------------------------------------
    Good morning, Mr. Chairman, and Members of the Committee. 
My name is Peter Eide. President Bush has nominated me for the 
position of General Counsel to the Federal Labor Relations 
Authority.
    I am truly honored and deeply appreciative and I would like 
to express my sincere gratitude to you for this opportunity to 
appear before you.
    Thank you, Mr. Chairman and Mr. Vice Chairman, for going 
into the introductions that I had planned to make now. My 
family members are behind me, sitting behind me. And you 
certainly stated their names and indicated who they were, so 
thank you for that. This is a momentous occasion for this 
family, and I thought it would be good if they could witness it 
firsthand.
    I would like to assure you that, if confirmed, I will 
enforce in a fair and consistent manner the Federal Service 
Labor Management Relations Statute, the decisions and 
regulations of the Federal Labor Relations Authority, and I 
will effectuate the statutes and regulations affecting all 
employers and employees, including especially those focused 
primarily on Federal Government employees.
    I am familiar with many of the statutes and regulations 
affecting employment in the Federal sector, having dealt with 
them directly or on behalf of the public and clients for nearly 
28 years.
    As you know, the Federal statute that I will apply and 
enforce is modeled on the National Labor Relations Act, a 
statute I enforced as an employee of the National Labor 
Relations Board for over 7 years, and which I have dealt with 
directly on behalf of employers, clients, and the business 
community for over 20 years.
    Members of the Committee and your staff of the Governmental 
Affairs Committee know, probably too well, that one of the 
biggest challenges we face is activating the Department of 
Homeland Security. Mr. Chairman, I think your comments 
reflected that concern.
    I want to assure you that of everything I do, one of my 
highest priorities will be to make sure that activation is done 
smoothly and promptly so that the Department can carry out its 
mission to protect this country from terrorism and other 
serious threats.
    I look forward to applying my years of labor law and labor 
relations experience in this position to which I have been 
nominated. I also assure you that I will be at all times 
responsive to the Governmental Affairs Committee and to the 
entire Senate and the Congress, as well.
    Thank you for considering my nomination and I will gladly 
answer any questions that you have.
    Senator Voinovich. Mr. Eide, before we start our 
questioning, there are some standard questions that we have to 
ask all nominees.
    The first one, is there anything that you are aware of in 
your background which might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Mr. Eide. No, sir.
    Senator Voinovich. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Eide. I know of nothing that would interfere with my 
job.
    Senator Voinovich. Do you agree to respond to any 
reasonable summons without reservation? Without reservation, to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed.
    Mr. Eide. Yes, Senator, absolutely.
    Senator Voinovich. We will start the first round of 
questions and we will limit those to 6 minutes.
    Mr. Eide, in March 1999, President Clinton introduced a 
proposal to protect whistleblowers who were fired for speaking 
out against health and safety hazards in the workplace. 
President Clinton had a proposal to protect whistleblowers who 
were fired for speaking out against health and standards in the 
workplace.
    In reactions to this proposed policy you said, the proposal 
would ``open the floodgates to meritless charges, plaintiff's 
lawyers are all too willing to sue an employer with no 
intention of getting a verdict, simply to blackmail the 
employer to force him to pay off the plaintiff.''
    I am somewhat concerned that a past statement like this 
gives the impression that you might lack the objectivity 
necessary for the position of General Counsel.
    So I would like to ask you a two-part question. First of 
all, are these your personal feelings, or were you merely 
reflecting the sentiments of the Chamber of Commerce?
    And second, do you think that you can maintain the ability 
to remain neutral and apply the labor relations statute in a 
fair and equitable manner?
    Mr. Eide. I do not recall making that statement, nor will I 
deny making that statement. It is consistent with the Chamber's 
position regarding what has been called, what has been termed 
plaintiff's lawyers, and what the Chamber believes to be their 
overwillingness to file charges and lawsuits against employers.
    What I said, and I am not denying I made that statement, is 
consistent with the Chamber's concern about overactive 
plaintiff lawyers and too many lawsuits against employers.
    I said that as a representative of the Chamber, as a 
spokesperson for the Chamber. And I want to make sure that you 
understand that does not necessarily reflect my personal views. 
In fact, it does not reflect my personal views on that 
particular subject.
    The concern about whistleblowers, I think, is genuine and 
has to be kept foremost in everybody's mind because that is the 
way that these problems in the workplace, these health and 
safety issues especially, are brought to light and corrected at 
the earliest possible date and in the most efficient way 
possible.
    So I am not denying that I made the statement but that does 
not reflect my personal views. It does, I think, reflect the 
view of the U.S. Chamber of Commerce at that time.
    Senator Voinovich. The issue is do you believe that you can 
bring impartiality to the job that you have and not be skewed 
in favor of the employer?
    Mr. Eide. Absolutely. I would like to point out that for 
the first 7 years, over 7 years of my career, I worked for the 
National Labor Relations Board. And the overwhelming majority 
of the cases that I handled and investigated and made 
recommendations on were charges against employers.
    I think I did that job capably and did it well. And as a 
result of my efforts in investigating those charges, a number 
of complaints were issued and employers, as a result, settled 
the charges, settled the allegations, or were brought before 
Administrative Law Judge's and the entire labor board to have 
the issue resolved.
    I do not think it is accurate to say that what I said as a 
representative of the Chamber and spokesman for the Chamber 
reflects on my objectivity or ability to address issues in an 
objective manner.
    Senator Voinovich. Have you given any thought to 
initiatives to try and foster better labor management 
relationships?
    Mr. Eide. Yes, sir, I have. The authority, the OGC, Office 
of General Counsel has what I think is an elaborate program to 
encourage representatives of labor and representatives of 
management to get along, to air their disputes, to resolve 
their disputes before it becomes an issue in contract 
negotiations and they reach an impasse because of those 
disputes, to try to get those resolved.
    I consider it a pretty elaborate program. I do not know if 
it is effective. It seems to me it would be effective. And I am 
anxious to engage in whatever activities I can and have my 
staff at the Authority do likewise, to encourage resolution of 
disputes before they have to be litigated.
    Senator Voinovich. How would you determine whether or not 
the effort currently underway is a good one?
    Mr. Eide. How would I determine?
    Senator Voinovich. You are coming on the job and you have 
got this in place. How would you go about deciding whether or 
not the initiative in the Department was a good one, or whether 
it needed improvement?
    Mr. Eide. The Authority's initiative? Is that what you are 
talking about?
    Senator Voinovich. Yes.
    Mr. Eide. Obviously, I am going to have to talk to a lot of 
people, the staff of the OGC first and foremost, and then 
representatives of organized labor and management 
representatives and find out whether or not these programs and 
policies are working.
    If they are not working, then they need to be changed and 
fixed. And I would be anxious to do that to make sure that the 
whole system works. It is referred to as the FITE program and I 
think that despite its name it would help the management and 
union folks resolve their disputes before they are brought to 
bear on the actual negotiations.
    Senator Voinovich. Thank you. Senator Durbin.
    Senator Durbin. Senator Akaka has been kind enough to allow 
me to go first because of my other committee hearing, even 
though he was first to arrive.
    Mr. Eide, thank you very much for being here.
    A basic question, did you seek this job?
    Mr. Eide. Did I seek this job? I understood that there was 
an opening for the General Counsel at the Federal Labor 
Relations Authority, and I, after learning of that opening, 
asked the White House if they would consider me for the 
position.
    Senator Durbin. So you did?
    Mr. Eide. Yes.
    Senator Durbin. You did seek the job.
    I am curious as to why you did that? I think there are a 
lot of positions in the Federal Government where your 
credentials would be impeccable. This is one that, as the 
Chairman has noted, raises a lot of questions about why, with 
your background with the Chamber of Commerce you would want to 
take on a position which is described under law as being a 
neutral party in the settlement of disputes that arise between 
Federal agencies and unions on matters outlined in the Federal 
Service Labor Management Relations statute.
    In the past 12 years you have been very outspoken and very 
anti-union on behalf of the Chamber of Commerce. On issue after 
issue, statute after statute, you have questioned worker 
protections. You have supported the dilution of a variety of 
protections of workers. You opposed OSHA regulations on safety 
and health. You opposed provisions of the 1991 Civil Rights Act 
that provides compensatory damage remedies and jury trials for 
violations of the Americans with Disabilities Act. You 
advocated a policy that would exempt from employment 
discrimination laws for 18 months employers who hired former 
welfare recipients. You have consistently opposed increases in 
Federal minimum wages and other minimum wages.
    Can you understand why the labor unions are a little bit 
worried if you are going to be their champion?
    Mr. Eide. Yes, sir, I can. I can also say that those 
positions that I took were as a representative of the Chamber. 
And as you know, the Chamber of Commerce is composed solely of 
businesses and employers and business associations. And their 
concern was what impact those laws that were under 
consideration at the time, or those regulations, would have on 
them.
    My job, as spokesperson for the Chamber, was to state what 
the Chamber's concerns were and to effectively argue the 
Chamber's position.
    Senator Durbin. I understand that. I have been an attorney, 
too, and I know that you represent your client. But I am going 
to have to take you to the obvious question. I believe you are 
a man of principle. Are you saying then that you were stating 
positions which you did not personally agree with when you 
represented the Chamber of Commerce?
    Mr. Eide. I cannot say that applies to all of the issues 
that you raised. There were concerns that I personally had 
regarding some of the regulations that were proposed. The 
welfare reform statute is a good example. What we thought would 
be appropriate would be an exception for some employers for 
liability under various Federal discrimination laws, so that it 
would serve as an encouragement to hire people on welfare.
    As it turned out, in that economic age or time period, 
there was a shortage of employees nationwide and it was not 
necessary to add an inducement for employers to hire people off 
of welfare.
    Senator Durbin. I only have a limited time, maybe 2 minutes 
left here.
    I note in your biography that before law school, or perhaps 
at the same time as you were pursuing your legal education, you 
were a member of a public employees union, and I suppose a 
representative of that union, in the work that you were doing.
    What would you say is the reason for unions? Why do you 
believe that we have unions today?
    Mr. Eide. I think that unions can provide a mouthpiece for 
an employee, for all employees, an effective mouthpiece. In my 
case, that was a situation where you had a management that 
required formal notification of what employees rights were and 
constant reminders of what employee rights were that might not 
be able to be conveyed to management by individuals and could 
easily be conveyed through a spokesperson. And I was that 
spokesperson at that time.
    Senator Durbin. Mr. Eide, in a 1997 article appearing in 
the Minneapolis-St. Paul Star Tribune, you were quoted in 
reference to the Fair Labor Standards Act. You said as follows: 
``the raison d'etre of unions is antagonism.''
    That is a harsh statement. If I am a member of a union or 
representing people in a union and I hear that you want to be 
my advocate now and you believe that the reason unions exist is 
to antagonize an employer, I am not sure I am going to get a 
fair shake from you.
    What you have just stated was a union serves as a 
mouthpiece. If you had a little more time you might come up 
with a different word. I hope you will.
    But I hope you understand that on this side of the table, 
this is a curious nomination by the administration. As I said, 
I can think of a hundred jobs that would be perfect for someone 
from the Chamber of Commerce. I do not think this is one of 
them. Thank you.
    Senator Voinovich. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Eide, the General Counsel of the Federal Labor 
Relations Authority has broad prosecutorial discretion in 
determining whether to pursue allegations of unfair labor 
practices and operates, to a large extent, without review by 
the members of the Authority or any court. Refusal to pursue 
allegations of misconduct leaves the injured party without any 
legal recourse.
    Given this considerable responsibility, what factors will 
you use in deciding whether to take such an action?
    Mr. Eide. To prosecute a case?
    Senator Akaka. Correct.
    Mr. Eide. There are a whole lot of factors to consider, 
that must be considered. What exactly happened to the 
individual? What is the complaint? What is the likelihood of it 
being resolved through methods other than litigation? What 
remedies can be provided to the individual if it, in fact, 
occurred, if the individual did in fact suffer some sort of 
discrimination or adverse impact? What is the remedy that is 
involved and how will that be brought about? How can that be 
achieved through the system where the employee works?
     Those are a few of the considerations. I think that has to 
be just some of them. There have to be a number of other 
considerations that would go through my mind, as well.
    I cannot list them all right now, right offhand, but it is 
not something that is what you would call a slam dunk, by any 
means. It would have to be very deliberate and would require 
assessing a lot of facts, gathering and assessing a lot of 
facts in every single case.
    Senator Akaka. Legislation creating the Department of 
Homeland Security provided the new Department with great 
flexibility with its human resources management system. This 
includes the authority to waive or modify Chapter 71 of Title 
5, which governs labor management relations.
    Such authority could have major implications on how labor 
management relations are handled and what matters, if any, may 
come before your office. Do you have any recommendations as to 
what modifications should be made to Chapter 71 as it applies 
to the Department of Homeland Security.
    Mr. Eide. I do not have such a recommendation at this time. 
I am sure that I will develop some over time, but I cannot 
articulate those at this point. I simply do not know.
    I know that there has to be some changes made. The 
Chairman's comments about human capital issues, and revising 
some issues in that area were intriguing because before I was a 
lawyer or a labor relations rep, I was a human resources 
manager and still am a member of the Society for Human 
Resources Management. I chose to follow my mother's footsteps 
rather than my father's footsteps. She was an human resource 
manager for many years. For some reason I took to that rather 
than my father's profession, pharmacy.
    But I am familiar with the fundamental tenets of human 
resource management and I really appreciate the comments that 
the Chairman made about revisions to human capital issues and 
working that side of the homeland security problem or 
activation that I referred to earlier.
    Senator Akaka. I want to thank you, Mr. Eide, for your 
response. I hope you will keep this Committee updated on your 
activities and also on any recommended changes you may be 
proposing. As has been indicated here, there are concerns about 
your experiences and some of your comments, but I wish you well 
on this nomination.
    Mr. Eide. Thank you.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Voinovich. Thank you Senator Akaka.
    Mr. Eide, I would like you to do a couple of things. First 
one is to ask you to share your philosophy on labor 
management's relationships, and how you envision your job 
responsibilities.
    And the second one would be what steps--maybe you ought to 
answer the latter question before the former. That is what 
steps have you taken thus far to prepare for this position?
    Mr. Eide. I have read a number of Authority cases. I have 
read large parts of the General Counsel's, former General 
Counsel's statements, guidance documents on labor relations and 
alternative dispute resolution.
    I have read the statute carefully several times. I have 
amassed a very small library of reference documents regarding 
Federal Sector Labor Relations.
    I have joined the ABA Section on Federal Sector Labor Law 
and become active in that group. I have become a member of the 
Society for Federal Labor Relations Professionals--I do not 
know if that is the correct name of the group--and attended 
their meetings.
    And I have tried my best to become active in issues that 
involve Federal Sector Labor Relations.
    I do not know what more I could have done. I held down a 
job in another area at the same time and was a single parent to 
one of the people sitting behind me.
    So I did what I could and I look forward to doing a whole 
lot more as the situation will permit. Once I no longer have to 
have two jobs and worry about two sectors, the public sector 
and private sector, I can focus on the public sector, Federal 
sector work.
    In answer to your other question, on my philosophy on labor 
management relationships, the quintessential labor management 
relationship, productive labor management relationship, was 
what I experienced when I was a labor management rep at Martin 
Marietta in Baltimore. There was a 2,000 person bargaining unit 
represented by the United Auto Workers. And the UAW had been 
there since the early 1940's or late 1930's, I believe. They 
had a very sophisticated relationship.
    And I got to witness firsthand how management could, 
working with the union, resolve disputes early and thoroughly 
effectively, and refine disputes that could not be resolved 
easily or quickly so that they could be resolved at the next 
higher level, which usually involved corporate representatives 
and national union representatives or international 
representatives of the union. I witnessed those bargaining 
sessions, as well, and saw again firsthand how a very 
sophisticated and effective collective bargaining relationship 
works.
    I appreciated the fact that the union was there, had been 
there for a long time and did have a great relationship with 
the company. The company appreciated that and they were able to 
do, I think, great things in their industry.
    As you know, that company no longer exists but has been 
merged with another large defense contractor. And I think they 
still have the same relationship.
    Senator Voinovich. I do not know the answer to this 
question. How many employees will you have? I know that you are 
in charge of seven regional offices. Do you know how many 
people you will actually be responsible for?
    Mr. Eide. Good question. I believe it is in the area of 90. 
It might be a few more or a few less, I am not sure.
    Senator Voinovich. Have you had any management experience, 
90 people, in terms of organizational experience? You have got 
regional offices, you have got people. What kind of experience 
have you had in that regard?
    Mr. Eide. In setting up regional offices?
    Senator Voinovich. I am just talking about management 
experience generally. For example, the job that you have now, 
how many people are you responsible for? Prior to this, the 
jobs that you have had, how many people were you responsible 
for, in terms of management?
    Mr. Eide. The direct line management relationship was not 
there when I worked at Martin Marietta. It was a dotted line 
relationship. I was in a position to advise line managers and 
section managers and section directors on how to achieve their 
human resources and labor relations goals, and when necessary, 
effectively recommend action, disciplinary action if it was 
necessary, in that area.
    So it was not direct management relationship by any means, 
but it was certainly dotted line, and certainly involved in the 
management decisions and instrumental in what decisions were.
    Senator Voinovich. How about when you were with the FLRB? 
Did you have any management responsibilities there?
    Mr. Eide. You mean at the National Labor Relations Board?
    Senator Voinovich. Yes, the NLRB?
    Mr. Eide. Other than training employees, I was a senior 
examiner at the NLRB, and many new employees were assigned to 
work with me for varying lengths of time. My job was to train 
them and to supervise their daily activities, their daily work. 
Other than that, there was no direct management.
    Senator Voinovich. How about the Chamber?
    Mr. Eide. Again, other than my personal staff, there is no 
direct management. However, the Chamber is, I think, an unusual 
operation because there is--a good example is I recently 
conceived and produced and directed a webcast show involving 
several people from OSHA and individuals from various 
companies.
    My job was to coordinate all of the activities and have 
everybody at the Chamber do what they were supposed to do. The 
camera work, getting the web site ready, getting the 
information and the actual video presentation on the web site. 
Again, it was not direct management, it was getting people to 
do their jobs with respect to my particular interest and on a 
timely basis, and a thorough and competent basis.
    Again, it was a--I like to describe it as a dotted line or 
matrix-type of operation. And that was successful and it is on 
the web site now. It is a webcast on ergonomics, of all things, 
and it can be viewed by going to the Chamber's web site.
    Senator Voinovich. Is there anything else that you want to 
share with me this morning?
    Mr. Eide. No, I appreciate your having this hearing and 
considering the nomination and I stand ready to answer any 
questions that you may have.
    Senator Voinovich. We are going to adjourn the hearing and 
we are going to leave the record open until 5 o'clock in case 
there are other Members of the Committee who were not able to 
be here.
    I apologize, that is the way it is around the Senate. I 
have had a lot of these hearings, and sometimes I am the only 
one who is here. So we are lucky to have a couple of other 
Senators here.
    Mr. Eide. As you know, I am a lobbyist and I have seen 
umpteen hearings in both the House and the Senate.
    Senator Voinovich. Then you understand. I just want to 
explain to your family. It is an important hearing. It is just 
that Senators, at any given hour of the day we could probably 
be at three places and each of them is a legitimate use of our 
time.
    So again, I want to thank you very much, and thank the 
family for coming here today with you, and we look forward to 
seeing you again.
    As I say, we will leave the record open but I will recess 
the hearing
    [Whereupon, at 10:22 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8243.001

[GRAPHIC] [TIFF OMITTED] T8243.002

[GRAPHIC] [TIFF OMITTED] T8243.003

[GRAPHIC] [TIFF OMITTED] T8243.004

[GRAPHIC] [TIFF OMITTED] T8243.005

[GRAPHIC] [TIFF OMITTED] T8243.006

[GRAPHIC] [TIFF OMITTED] T8243.007

[GRAPHIC] [TIFF OMITTED] T8243.008

[GRAPHIC] [TIFF OMITTED] T8243.009

[GRAPHIC] [TIFF OMITTED] T8243.010

[GRAPHIC] [TIFF OMITTED] T8243.011

[GRAPHIC] [TIFF OMITTED] T8243.012

[GRAPHIC] [TIFF OMITTED] T8243.013

[GRAPHIC] [TIFF OMITTED] T8243.014

[GRAPHIC] [TIFF OMITTED] T8243.015

[GRAPHIC] [TIFF OMITTED] T8243.016

[GRAPHIC] [TIFF OMITTED] T8243.017

[GRAPHIC] [TIFF OMITTED] T8243.018

[GRAPHIC] [TIFF OMITTED] T8243.019

[GRAPHIC] [TIFF OMITTED] T8243.020

[GRAPHIC] [TIFF OMITTED] T8243.021

[GRAPHIC] [TIFF OMITTED] T8243.022

[GRAPHIC] [TIFF OMITTED] T8243.023

[GRAPHIC] [TIFF OMITTED] T8243.024

[GRAPHIC] [TIFF OMITTED] T8243.025

[GRAPHIC] [TIFF OMITTED] T8243.026

[GRAPHIC] [TIFF OMITTED] T8243.027

[GRAPHIC] [TIFF OMITTED] T8243.028

[GRAPHIC] [TIFF OMITTED] T8243.029

[GRAPHIC] [TIFF OMITTED] T8243.030

[GRAPHIC] [TIFF OMITTED] T8243.031

[GRAPHIC] [TIFF OMITTED] T8243.032

[GRAPHIC] [TIFF OMITTED] T8243.033

[GRAPHIC] [TIFF OMITTED] T8243.034

[GRAPHIC] [TIFF OMITTED] T8243.035

[GRAPHIC] [TIFF OMITTED] T8243.036

[GRAPHIC] [TIFF OMITTED] T8243.037

[GRAPHIC] [TIFF OMITTED] T8243.038

[GRAPHIC] [TIFF OMITTED] T8243.039

[GRAPHIC] [TIFF OMITTED] T8243.040

[GRAPHIC] [TIFF OMITTED] T8243.041

[GRAPHIC] [TIFF OMITTED] T8243.042

[GRAPHIC] [TIFF OMITTED] T8243.043

[GRAPHIC] [TIFF OMITTED] T8243.044


</pre></body></html>
